fan

C@OQCKLE

2311 Douglas Street Le ga l Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-1199
DON HIGGINSON,
Petitioner,

v.
XAVIER BECERRA, in his official capacity as the
Attorney General of California; City of Poway,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of May, 2020, send out from
Omaha, NE 4 package(s) containing 3 copies of the BRIEF AMICUS CURIAE OF THE CITIES OF MISSION VIEJO,
OROVILLE, SOLANA BEACH, SOUTH PASADENA, AND BARSTOW, AND THE TOWN OF YUCCA VALLEY,
CALIFORNIA, IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:

MARGUERITE MARY LEONI, ESQ.

Counsel of Record

CHRISTOPHER E. SKINNELL, ESQ.

NIELSEN MERKSAMER
PARRINELLO GROSS
& LEONI LLP
2350 Kerner Blvd.,
Ste. 250
San Rafael, CA 94901
Phone: (415) 389-6800
mleoni@nmgovlaw.com
Counsel for All Amici Curiae
THOMAS D. JEX, ESQ.
Town Attorney
TOWN OF
YUCCA VALLEY, CALIF.

WILLIAM P. CURLEY III, ESQ.
City Attorney
CITY OF
MISSION VIEJO, CALIF.
JOHANNA CANLAS, ESQ.
City Attorney
CITY OF
SOLANA BEACH, CALIF.
SCOTT E. HUBER, ESQ.
City Attorney
CITY OF OROVILLE, CALIF.
TERESA L. HIGHSMITH, ESQ.
City Attorney
CITIES OF
SOUTH PASADENA &
BARSTOW, CALIF.

Subscribed and sworn to before me this 6th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

    

GENERAL NOTARY-State of Webrasica
RENEE J. GOSS
My Comm. Exp. September 6, 2023

 

 

Notary Public Affiant
NAME

Attorneys for Petitioner

William Spencer Consovoy
Counsel of Record for
Don Higginson

Attorneys for Respondents

Alan Brian Fenstermacher
Counsel of Record for
City of Poway

Joshua A. Klein
Counsel of Record for
Xavier Becerra

ADDRESS

Consovoy McCarthy PLLC
1600 Wilson Boulevard

Suite 700

Arlington, VA 22209
will@consovoymecarthy.com

Rutan & Tucker LLP

611 Anton Boulevard., 14th Floor
Costa Mesa, CA 92626
afenstermacher@rutan.com
Office of the Solicitor General
California Department of Justice
1515 Clay Street

Suite 2000

Oakland, CA 94612-1413

joshua. klein@doj.ca.gov

Attorneys for Intervenor-Respondents

Thomas Andrew Saenz
Counsel of Record for
California League of United Latin
American Citizens, Jacqueline
Contreras, Xavier Flores, Judy Ki,
and Hiram Soto

Mexican American Legal Defense
and Educational Fund

634 S. Spring Street

11th Floor

Los Angeles, CA 90014
tsaenz@maldef.org

PHONE

(703) 243-9423

(714) 641-3452

(510) 879-0756

(213) 629-2512
